                                          NATIONAL SCIENCE FOUNDATION
                                           OFFICE OF INSPECTOR GENERAL
                                             OFFICE OF INVESTIGATIONS

                                    CLOSEOUT MEMORANDUM

I ) ) c l          File Number: 196010002                                       I   Date: 05 March 2002


Il   Subject: Closeout Memo                                                                 Page 1 of 1


          There was no closeout written at the time this case was closed. The following information was
          extracted from the file in conformance with standard closeout documents.

          Our office was informed that the subject' and his staff accountant were alleged to have committed
          embezzlement, theft or diversion of grant funds. The subject, a superintendent at a city school2,
          mismanaged $18,000 inNSF grant funds. We did not uncover any criminal intent. The subject was
          removed from his position and the school returned $18,000 to the NSF grant.

          Accordingly this case is closed.




                    Prepared by:                    Cleared by:
                   Agent:          Attorney:      Supervisor:     AIGI
 I
       Name:
